<html>
<title> - COMMUNITY SOLUTIONS TO BREAKING THE CYCLE OF HEROIN AND OPIOID ADDICTION</title>
<body><pre>[Senate Hearing 113-687]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-687
 
                       COMMUNITY SOLUTIONS TO BREAKING THE 
                       CYCLE OF HEROIN AND OPIOID ADDICTION

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         MONDAY, MARCH 17, 2014

                               __________

                            RUTLAND, VERMONT

                               __________

                          Serial No. J-113-53

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         

                       
                         U.S. GOVERNMENT PUBLISHING OFFICE
95-645 PDF                   WASHINGTON : 2015                         
                       
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83e4f3ecc3e0f6f0f7ebe6eff3ade0eceead">[email&#160;protected]</a>  
                     
                       
                       
                       
                       
                       
                       
                       
                       
                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
                Kristine Lucius, Majority Staff Director
              Kolan Davis, Republican Chief Staff Director
                            
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Senator Patrick J., a U.S. Senatory from the State of 
  Vermont........................................................     1
    prepared statement...........................................    35

                               WITNESSES

Coffin, Hon. Tristram, U.S. Attorney, District of Vermont, 
  Department of Justice, Burlington, Vermont.....................     5
    prepared statement...........................................    38
James W. Baker, Chief, Rutland City Police Department, Rutland, 
  Vermont........................................................     8
    prepared statement...........................................    42
Harry L. Chen, M.D., Commissioner of Health, Burlington, Vermont.    12
    prepared statement...........................................    46
Mary Alice McKenzie, Executive Director, Boys & Girls Clubs of 
  Greater Burlington, Burlington, Vermont........................    16
    prepared statement...........................................    52
Colonel Thomas L'Esperance, Director, Vermont State Police, 
  Waterbury, Vermont.............................................    21
    prepared statement...........................................    57

                               QUESTIONS

Questions submitted by Senator Chuck Grassley for James W. Baker.    61
Questions submitted by Senator Chuck Grassley for Dr. Harry Chen.    62
Questions submitted by Senator Chuck Grassley for Mary Alice 
  McKenzie.......................................................    63
Questions submitted by Senator Chuck Grassley for Col. Thomas 
  L'Esperance....................................................    64

                                ANSWERS

Responses of James W. Baker to Questions Submitted by Senator 
  Grassley.......................................................    65
Responses of Dr. Harry Chen to Questions Submitted by Senator 
  Grassley.......................................................    67
Responses of Mary Alice Mckenzie to Questions Submitted by 
  Senator Grassley...............................................    73
Responses of Col. Thomas L'Esperance to Questions Submitted by 
  Senator Grassley...............................................    74

                       SUBMISSIONS FOR THE RECORD

Robin Rieske, Brattleboro, Vermont, letter.......................    75
Nancy Corsones, Vermont, letter..................................    77
Nick Santoro, Rutland, Vermont, letter...........................    78
Douglas S. Johnston, Springfield, Vermont, letter................    80
Gina Fucci, Vermont, letter......................................    81
Sheriff Roger M. Marcoux, Hyde Park, Vermont, statement..........    82
Bobby Maynard, Vermont, letter...................................    86
Joseph Krause, Vermont, testimony................................    87
Madison Akin, Clarendon, Vermont, letter.........................    90
Dr. Rick Barnett, Stowe, Vermont, letter.........................    94
Dustin A. Degree, St. Albans, Vermont, letter....................    97
Dr. Alis Headlam, Ed.D., Vermont, letter.........................    99
Monica Rugg, Wallingford, Vermont, letter........................   100
Chelsea Clark, Fairfax, Vermont, letter..........................   101
Gov. Peter Shumlin, Rutland, Vermont, written testimony..........   102
Terri Mayer Thomsen, letter......................................   104
Rebecca Tiger, Middlebury, Vermont, letter.......................   105
Kathleen Krevetski, Vermont Farmers Food Center, Rutland, 
  Vermont, letter................................................   106
Anonymous, Rutland, Vermont, letter..............................   107
Jessica Doos, Vermont, letter....................................   108
Robert F. Forman, Ph.D., Waltham, Massachusetts, statement.......   109
Project Lazarus Model, Wilkes County, synopsis...................   116
Heather Bryant, Vermont, letter..................................   121
Steve Handley, Waitsfield, Vermont, letter.......................   123
Julianne Holland, MA, LADC, Vermont, letter......................   124
Lynne Klamm, Rutland, Vermont, letter............................   125
Julian Partridge, Vermont, letter................................   127
Vermont Recovery Network, White River Junction, Vermont, 
  statement......................................................   128
Larry Bayle, Boys & Girls Club of Rutland County, Vermont, letter   134
Christopher J. Brickell, Brandon Police Department, Brandon, 
  Vermont, letter................................................   135
James M. Candon, Jr., Jericho, Vermont, letter...................   137
BB Donnis, 5-Town Drug and Safety Alliance, Addison County, 
  Vermont, letter................................................   142
Geoff Kane, MD, Brattleboro, Vermont, letter.....................   147
Regina M. Kohlhepp, MS, BS, RN-BC, Rutland, Vermont, letter......   149
Patricia M. Lancaster, Mendon, Vermont, letter...................   152
Michael S. Leake, BS Pharm, R.Ph., Bennington, Vermont, letter...   159
Mary Martin, Cornwall, Vermont, letter...........................   162
Kathy and Patrick Martin, Co-Founders, Wits End, Rutland, 
  Vermont, letter................................................   163
Michael F. Moran, Rutland, Vermont, letter.......................   165
Kristi C. Morris, Springfield, Vermont, letter...................   166
Donna Quesnell, Vermont, letter..................................   171
Alberta Randall, Vermont, letter.................................   173
Mike Reiderer, Executive Director, Boys & Girls Club of Greater 
  Vergennes, Vergennes, Vermont, letter..........................   174
Maria Roosevelt, Vermont, letter.................................   178
Bonnie Scott, Vermont, letter....................................   180
Vito Moro, Rutland, Vermont, letter..............................   181
Opioid Addiction Op Ed, Dr. Harry Chen, MD, Commissioner of 
  Health, statement..............................................   182


    COMMUNITY SOLUTIONS TO BREAKING THE CYCLE OF HEROIN AND OPIOID 
                               ADDICTION

                         MONDAY, MARCH 17, 2014

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:07 p.m., in the 
Franklin Conference Center at the Howe Center, 1 Scale Avenue, 
Rutland, Vermont, Hon. Patrick J. Leahy, Chairman of the 
Committee, presiding.
    Present: Senator Leahy.
    Also present: Representative Welch.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. If we can all come to order. I want to 
thank everybody for being here, including Congressman Welch, 
because this is a bicameral matter. I must point out that 
Congressman Welch has a much brighter green tie on than I do.
    First off, I will wish all of you a Happy St. Patrick's 
Day, and thank you for coming out for this.
    We are having this hearing--and I know so many of you in 
this room and I have worked with so many of you here in 
Rutland--to talk about opioid addiction and heroin and how 
communities such as Rutland can successfully come together to 
solve this complex problem.
    It is a complex challenge. It goes into neighborhoods, it 
goes into communities of all kinds and sizes, in urban and 
rural areas alike throughout the country. And Vermont has not 
been spared. We have seen that the demand for treatment between 
the year 2012 for addiction in Vermont rose by more than 770 
percent, and Dr. Chen can speak about this in greater detail. 
But that is consistent with what we are seeing with opioids 
around the country, including heroin. We also hear the stories 
of the young people whose lives have either been ruined or 
ended because of this.
    Now, Vermont is way ahead of the country in many ways. We 
have openly identified the problem. We are trying to find ways 
to not just help addicts get clean, but to stop this. We have 
heard many times, but it bears repeating, and I would say this 
as somebody who spent eight years as a State's attorney: You 
cannot arrest your way out of this problem. It is not just a 
law enforcement problem even though we have among the finest 
law enforcement people in the country. You cannot just put it 
on the backs of law enforcement. You have to have prevention, 
education, and treatment to go along with law enforcement.
    We have many eyes now on Vermont. Governor Shumlin has 
spoken forcefully about the heroin crisis. It is significant 
that he did something no other Governor in the country would 
do. He dedicated his State of the State message to this problem 
this year.
    The Chief Justice of Vermont, Paul Reiber, has added his 
voice. He noted, ``This challenge is complex and cannot only be 
met with the blunt tool of criminalization.''
    This addiction is an issue of great importance to me, both 
as a lifelong Vermonter but also as someone who cares deeply 
about making sure we have a legal, lasting solution. And I want 
to applaud Rutland. Rutland has been in the forefront of 
seeking solutions and working hard to do it. This city is one I 
have known from my childhood days on, and it is a city that 
deserves enormous admiration for what it does. But we have to 
get ahead of addiction. We cannot let it corrode our lives and 
our communities.
    Now, I look at problems in our criminal justice system at 
the federal level. What I see is that when we look for creative 
solutions, many times the solutions we find at the federal 
level are actually being done at the local level. And if we 
look at what has been tried in a community like this, it 
sometimes sets the model for what we should do nationally. If 
it works in the State system, we ought to adopt it at the 
federal system. And Vermonters do not shy from a challenge, and 
they do not hesitate to tell you what is on their mind. And so 
we have got some innovative programs.
    Chief Baker is working collaboratively with Mayor Louras 
and residents--and I saw the mayor at lunch right around the 
corner--and community developers, housing advocates, and 
prevention specialists. A community response known as Project 
VISION shows how people can join together to combat drugs. The 
Project VISION'S Chairman, Joe Kraus, summed it up this way: 
``We have two choices here. We can curse the darkness, or we 
can light a candle, to quote an old saying.''
    Well, Rutland is just one example of how communities around 
Vermont are working together to confront this crisis. It is not 
unique just to the large cities. As Sheriff Roger Marcoux notes 
in his written testimony, which will be part of the record, 
roughly half of Vermont's overdoses since 2011 have occurred in 
rural settings.
    [The prepared statement of Sheriff Marcoux appears as a 
submission for the record.]
    Chairman Leahy. I live on a dirt road in Vermont in a town 
of 1,500 people. My nearest neighbor is a half a mile away. I 
do not think that we face any less of a problem there than you 
do in our largest cities.
    We have to be in it together. This is the fourth time I 
have brought the Judiciary Committee here to Vermont, and we 
have talked about the three-tiered approach: prevention, 
treatment, and enforcement. But Vermont has shown that more 
success is possible when prevention and treatment and law 
enforcement are not each one in a little section by themselves. 
And I know from my own years in law enforcement as State's 
attorney in Chittenden County how important these efforts are.
    I have never seen in my lifetime in this State a law 
enforcement community more fully committed to prevention and 
treatment efforts as we have right now. And I think we 
Vermonters ought to be proud of that because law enforcement 
would rather not arrest and prosecute the same offenders over 
and over again when what you have is a treatable addiction. And 
treating the addiction can be the better and less costly 
approach. It also results in a lot fewer cases lying on 
detectives' and prosecutors' desks.
    One of the programs I am working on in Washington is the 
Second Chance Act. We have introduced it for reauthorization. 
It is going to be coming before the Senate Judiciary Committee 
very soon. It supports initiatives like the Vermont Court 
Diversion Program so that people with minor charges can keep 
their records clean if they successfully complete a program. 
Otherwise, how are these people ever going to be hired? How are 
they ever going to get a job?
    We have seen innovative diversion models that have emerged 
in response to community needs. We saw in Windsor County the 
Sparrow Project, Rapid Intervention efforts in Chittenden 
County. Those are just a few examples. But we also have 
witnesses who are going to talk about how we break the cycle of 
addiction in our communities. Vermont's superb U.S. Attorney, 
Tris Coffin, has taken his message of prevention into Vermont's 
schools, and, Tris, I know you have also gone with the father 
of a University of Vermont student, who died of a heroin 
overdose. And I get letters and I get calls from people when 
you have both been there to talk to them, so thank you for 
doing that.
    Chief Baker is facilitating a community-based response. He 
boils it down to a very simple Vermont message: ``Not on our 
streets, not in our town.'' That sort of says it all, Chief.
    Chief Baker. Thank you, Senator.
    Chairman Leahy. Dr. Chen, with his years of experience as 
an emergency room physician, is now working with the Governor 
to take the prevention message to our communities and to our 
schools.
    Mary Alice McKenzie, whom I have known all her life, and 
her parents before that, is working through the Boys & Girls 
Clubs to respond to the needs of our kids. And I think you have 
found these kids want a positive and healthy and supportive 
alternative to addiction.
    And the Vermont State Police under the direction of Colonel 
L'Esperance, in partnership with the Vermont Department of 
Health, are using a promising drug, naloxone, which can 
immediately reverse the effects of a heroin overdose. The 
colonel met with me in my office in Montpelier here a few weeks 
ago to show me that.
    So I really want to hear from all of you, but before I do, 
I am going to turn to Congressman Welch. One of the lucky 
things in Vermont, we all know each other and we can work 
together. Peter Welch had a distinguished career in the State 
legislature before he went to the House. He is well respected 
on both sides of the aisle, and I think it is safe to say we 
both found the same thing, that this is not a Republican or a 
Democratic issue. It is a human issue. And for us in this room, 
it is a Vermont issue. Peter.

  OPENING STATEMENT OF HON. PETER WELCH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF VERMONT

    Representative Welch. Patrick, thank you.
    I want to thank Patrick, because I know everybody else 
does, for bringing the Judiciary Committee here. And with your 
eight years--was it eight years that you were the Chittenden 
County State's attorney?
    Chairman Leahy. Yes.
    Representative Welch. Oftentimes you speak about that as a 
job above all others where you were dealing with real people 
and real lives, and that experience, obviously, is what a lot 
of our panelists share and a lot of Vermonters here share. And 
now you happen to be the most senior member of the U.S. Senate 
and in a position to really help us help the people who are 
trying to help Rutland. So we are all very grateful to you, 
Patrick, for convening this hearing here today. I just want to 
give him a round of applause.
    [Applause.]
    Representative Welch. And I cannot add to what Patrick 
said, but, you know, as a Vermonter--we are all Vermonters, and 
the kind of thing that binds us together is we have this almost 
indiscriminate pride about our sense of place and sense of 
community, that it is small, that we care about our neighbors. 
And there was a lot of alarm, to some extent, when the Governor 
spoke in his whole address about this challenge. And some folks 
were a bit nervous that we were giving publicity to a ``bad 
problem.''
    But you know what? What we know is that when communities 
face their problems, it is the first step in solving their 
problems. And it was interesting to me in Congress, I had 
colleagues from all over the country who saw the publicity, and 
they came up to me, and they said, ``Peter, how do you guys get 
the nerve to do this? Because this is a problem we are facing, 
but we are not dealing with it.''
    And if we are going to maintain what it is we find so 
important to each of us, a sense of community, it means we have 
got to step up and not look to the courts as the sole solution 
or to our law enforcement as the sole solution, but where we 
acknowledge every one of us really has a role to play.
    One of the things that has been so great for me in watching 
this is that it has given parents some space to come out of the 
shadows and talk to their other parents about, ``Is this a 
problem for you?'' And they can get the support they need to 
try to cope.
    So, Patrick, this hearing, I think all of us are really 
grateful to you, and I want to echo your remarks, too, that the 
real heroes here are the moms and the dads and the citizens of 
Rutland and of the State of Vermont who are stepping up to work 
together to try to do everything we can to mitigate and 
minimize this issue.
    Thank you.
    Chairman Leahy. Thank you very much.
    [Applause.]
    Chairman Leahy. I cannot applaud Rutland enough, because we 
had a similar hearing a few years ago when Senator Arlen 
Specter and I were here, and that shaped a number of federal 
programs for the better because of what we heard from you.
    Our first witness is Tristram Coffin, the U.S. Attorney for 
the District of Vermont. He grew up in South Burlington, 
graduated from Columbia Law School, clerked for Federal 
District Court Judge Albert Coffrin. In the early 1990s, he 
helped make the Senate Judiciary Committee better by serving on 
that staff in Washington.
    He came back here, was for 12 years Assistant U.S. 
Attorney, went back into private practice after specializing in 
international drug-smuggling cases, and worked with the 
Canadian law enforcement. But the President asked him to step 
out of private practice, and he became the 36th U.S. Attorney 
for the District of Vermont in 2009.
    Before we begin, Tris, I want to applaud you for the fact 
that I hear from State police, local police, county police in 
the State how much you and your office have worked with them.

 STATEMENT OF HON. TRISTRAM COFFIN, U.S. ATTORNEY, DISTRICT OF 
      VERMONT, DEPARTMENT OF JUSTICE, BURLINGTON, VERMONT

    Mr. Coffin. Thank you, Senator. Thank you very much. It is 
such an honor to be here today with our partners in all these 
activities, and I want to thank you, Senator, for bringing the 
Senate Judiciary Committee to Vermont and for inviting me to 
share with you my views about the need for a broader community 
reaction to heroin and other opiate trafficking, use, and 
addiction. I and the Department of Justice appreciate your 
leadership on these issues for so many years and your 
dedication to improving the lives of Vermonters.
    First let me say that Rutland is a terrific small city. It 
has a strong and proud community and a great tradition. But it 
is a community like many others throughout New England and the 
United States that is going through a difficult time right now.
    Many communities are having to face up to the many 
significant challenges that are presented by opioid trafficking 
and addiction. Rutland is addressing these problems in a 
forthright, aggressive, and creative fashion. I commend Chief 
Baker and the rest of the Rutland community for doing that.
    The heroin, opiate, and opioid problem in Vermont is not 
new. It has been building for some time. Under your leadership, 
Senator Leahy, this Judiciary Committee has held three field 
hearings in Vermont on the issue of drugs in recent years, 
including opiates. As the problem of opioid addiction began to 
emerge, you invited Attorney General Holder here for the Opiate 
Prescription Medication and Heroin Summit we held in Montpelier 
in September 2010. You stated back then that the problem that 
was existing of rampant addiction to opioid prescription 
medications would soon lead to substantial heroin trafficking 
and addiction in Vermont, and, unfortunately, that indeed has 
happened.
    On March 10, 2014, Attorney General Holder in a public 
video message called the rise in overdose deaths from heroin 
and other prescription painkillers ``an urgent public health 
crisis.'' I could not agree more.
    The numbers and statistics are stark. Between 2006 and 
2010, heroin overdose deaths decreased nationally by 45 
percent. Heroin treatment numbers in Vermont are up over 250 
percent since 2000 and over 40 percent in the past year. Our 
office's prosecution of heroin traffickers is up, with 
indictments more than doubling last year and totaling more than 
four times what they were just a few years ago.
    But to me, one of the starkest statistics is the increase 
in fatal heroin overdoses we have here in Vermont. Last year's 
total--a record 21--was more than twice the number of the year 
before, which was also a record. And that is five times the 
number of what we had just a few years ago.
    These are obviously extremely concerning numbers. I want to 
echo the Attorney General and urge first responders to carry 
the drug known as naloxone. When administered quickly and 
effectively, naloxone immediately restores breathing to a 
victim in the throes of a heroin or opioid overdose. I applaud 
the Vermont State Police and the Vermont Department of Health 
for moving forward on this issue.
    When you deal with the families of overdose victims, I can 
tell you that every one of these numbers has a face and a name 
and loved ones left behind in pain that does not go away.
    The Justice Department, along with our partners in the 
Vermont State Police and Rutland Police Department, has been 
aggressive about prosecuting traffickers who seek to profit out 
of selling this misery, and we will continue to do so. But what 
this hearing is about is how important it is for the community 
to respond as a whole to this problem. We will remain active 
and vigilant on the law enforcement side, but it is not enough. 
This problem requires a broad community response, and I am 
thrilled that under the leadership of Chief Baker and others, 
Rutland is engaged in making this response, and similar broad 
community responses to this problem are happening throughout 
other parts of Vermont as well.
    Attorney General Holder has been very clear with me and my 
fellow U.S. Attorneys that we need to be smarter on crime, not 
just tougher. We are not giving the community what it deserves 
if we offer up only an expensive solution--unlimited 
incarceration--if it does not address the root causes of the 
problem.
    When we look at the problem of heroin and opioid use, law 
enforcement alone is not sufficient to address the problem. 
Community responses emphasizing prevention and treatment are 
essential complements to work in conjunction with law 
enforcement to make the community a safer and more drug-free 
place.
    Over the last three years, I have been fortunate to be 
involved in one such prevention program. On March 23, 2009, 
Skip Gates lost his treasured son, Will, to a heroin overdose. 
Will was an outstanding young man. He was in his third year at 
the University of Vermont studying molecular genetics, a 
standout Alpine ski racer, an incredible young man. We met Skip 
through the investigation of the heroin trafficker who sold 
Will the heroin that led to his death. Skip was searching for 
some way to turn this tragedy into something positive. Working 
with our office's outstanding crime victim advocate, Aimee 
Stearns, who I think is here today, and a great young filmmaker 
named Derek Hallquist, who is here, Skip, who is also present, 
had the courage to share his personal experience of this 
tragedy in the short film ``The Opiate Effect.'' We have sent 
the film to all the high schools in Vermont for free two years 
running. Also with the help from our office, Jim Lean, our law 
enforcement coordinator, we have spent the last three years 
traveling throughout Vermont playing the movie and talking to 
high school kids and their parents about the dangers of opioid 
use. Skip is an eloquent speaker, and the film is powerful. I 
think a lot of the power of the movie comes from its 
informational approach. Young people see firsthand the impact 
heroin has had on Skip and on his family. They hear from 
recovering addicts straight talk about what life as a heroin 
addict is like. The film does not really try to moralize; 
rather, it lays out the real facts on what life as an opioid 
addict is like so people can make clear choices. In this way, 
the film moves the conversation beyond ``Just Say No.''
    The importance of this, of course, is to try to stop people 
from entering the opioid addiction and criminal justice 
pipeline, because once that happens, there are no good 
outcomes, only varying degrees of bad ones.
    That is why the prospect of effective drug prevention is so 
important. We do a lot of work to reduce the supply of drugs 
coming into this State on the law enforcement side. But if we 
do not equally be as aggressive on reducing the demand side, 
our efforts will be of little avail.
    We need better and more drug treatment to get people who 
are addicted to these substances off of them, and we need 
better and more comprehensive prevention approaches to reduce 
the number of people who fall into this trap. Law enforcement 
is not the only answer. We need these other efforts as well.
    And to be successful, these prevention and treatment 
efforts must come from broad segments of the community, like 
those occurring here in Rutland and also in Burlington and many 
other communities in Vermont. We have to have realistic 
discussions of the issues communities face from opiate and 
other substance abuse and look to the ingenuity and creativity 
in these communities for newer and broader solutions.
    And when we have these discussions, we need to understand 
that comprehensive approaches rather than piecemeal or solely 
law enforcement-oriented approaches are necessary to solve the 
problem, comprehensive solutions rooted in the particular 
community that make sense for their community and tailored to 
each community's unique situation and characteristics, 
solutions that draw upon the perspectives, skills, and insights 
of a variety of stakeholders, not just the police.
    The other witnesses today, I know, will have much to add on 
this score, so I will close my remarks. But let me do so by 
thanking you, Senator Leahy, for coming here today and 
permitting me to speak on behalf of the Justice Department. 
And, moreover, thank you for your substantial dedication to 
this issue and your caring leadership on it for many years.
    [The prepared statement of Mr. Coffin appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, and you and Skip 
should know that that film, which is powerful, is part of the 
permanent records of the Senate Judiciary Committee, and a lot 
of people have seen it.
    Our next witness is Chief James Baker. Chief Baker served 
as head of the Vermont State Police for over 30 years before he 
retired in 2009. In 2012, he returned to public service and 
serves as Chief of the Rutland City Police. He has been 
recognized by everybody from the New England Narcotics 
Enforcement Association, Vermont Chiefs of Police Association, 
Vermont Sheriffs Association, Vermont Governor's Highway Safety 
Office, and the United States Attorney's Office. He is a 
graduate of Southern Vermont College, the FBI National Academy 
at Quantico, Virginia, and he is leading Rutland's community-
based effort.
    So, Chief, please go ahead.

    STATEMENT OF JAMES W. BAKER, CHIEF, RUTLAND CITY POLICE 
                  DEPARTMENT, RUTLAND, VERMONT

    Chief Baker. Thank you, Senator.
    Audience Member. Could you stand up, please?
    Chairman Leahy. That is okay. I think with the microphones 
it is best he be right there. Just bring the microphone close.
    Chief Baker. Thank you. Senator, Representative Welch, on 
behalf of Mayor Louras, Mr. David Allaire, the president of the 
Board of Aldermen, elected officials of the city of Rutland, 
members of the Police Commission, the citizens of Rutland, and 
the men and women of the Rutland City Police Department, I 
welcome you to this great city.
    We are proud of this great city, and we are honored you 
have taken the time to conduct a field hearing to hear about 
the good work being done here and the challenges of substance 
abuse and, in particular, opiate abuse.
    I want to echo the comments of U.S. Attorney Tris Coffin. 
The city of Rutland is a terrific community with a strong and 
proud history. This hearing is being held in a building that 
represents Rutland's proud history. The building dates back to 
the 1800s when the Howe Scale Company was located here. After 
years of productive output, Howe Scale fell on hard times, and 
the company closed in the early 1980s, leaving this expansive 
manufacturing complex, with more than 330,000 square feet, 
vacant. What to do with this vast structure soon became the 
source of intense public debate and disagreement.
    The debate about the future of the Howe Center has been 
captured and memorialized. It serves as a reminder of the 
challenges Rutland has faced. It serves as a reminder of the 
grit of this city. Just as Rutland created a new vision for the 
Howe Center, we are committed to remaking Rutland into one of 
the healthiest and safest cities in the United States. In fact, 
the Vision Statement of Project VISION is: ``Healthiest, 
safest, and happiest community in America!'' We have the 
people, the infrastructure and the will to get it done.
    Not unlike other communities, the city of Rutland has faced 
the challenges of illegal drug activity before. In the early 
1990s, as a young supervisor of a multi-agency drug task force, 
I worked out of Rutland and was involved in countless 
undercover drug operations that resulted in arrests, 
prosecutions, and convictions for drug distribution. The drugs 
of choice at the time were cocaine and marijuana. At that time, 
as a young investigator, I was convinced that the resources and 
efforts we applied had solved the drug problem. Fourteen years 
later, I became the director of the Vermont State Police, and 
Rutland City Police Chief, Tony Bossi, sought help from the 
State Police with a new and emerging drug problem. The call for 
help was based on a fatal shooting on Grove Street during a 
drug deal and reports of violence involving firearms. The city 
had reached the tipping point on drug activity and violence. 
After a significant commitment of resources, a drug sweep 
rounded up more than 40 defendants in an operation known as 
Operation Marble Valley. The cases had strong out-of-State 
influences marked with a serious presence of gun culture and 
the drugs involved were cocaine, crack cocaine, and heroin. At 
the press conference announcing the arrests, officials made the 
point that these arrests were meant to change the direction of 
the drug culture in Rutland.
    Around the same time under your leadership, Senator Leahy, 
the U.S. Senate Judiciary Committee held a field hearing in 
this very room. There was testimony about the need for 
prevention, treatment, and enforcement. The community rallied 
for a period of time.
    In January 2012, I arrived as the interim Chief of Police 
to find yet another emerging drug culture and challenge. This 
time, the drug was heroin. I found a police department that was 
demoralized and a community that had no trust in its police 
department. This dispirited atmosphere stemmed from the fact 
that there was an unrealistic expectation that the police 
department could and should singlehandedly resolve the issues 
of illegal drugs in the community. As more pressure was applied 
to the police department to act, the more aggressive the law 
enforcement actions became. The measure of success was the 
number of arrests made and the amount of drugs seized. The 
trouble with those metrics was that history clearly showed that 
arrests alone were not going to change the environment because 
it does not take into account the underlying social issues 
relating to drugs. Not one of the underlying issues that are 
tied to addiction is under the control of the police, yet the 
solutions to the issue were laid at the doorstep of the police 
department. It became apparent that in order to effect change 
in our escalating drug crisis--a crisis from our experience 
that originates at its base from the initial addiction to 
prescription drugs--the situation was going to require all 
hands on deck.
    As we began the conversation with our non-law enforcement 
partners, we worked to gather a coalition of local, State, 
county, and federal enforcement partners in an effort to change 
the culture and the environment on the street by employing 
laser-focused enforcement operations. The effort resulted in 
Operation Fedup and was coordinated by ATF and other partners, 
both federal, State, and local. The very first operation 
resulted in seizing nearly 8,000 bags of heroin and 
approximately $90,000 in cash. That investigation led to 
connections of drug distribution networks in New York City. The 
furtherance of the investigation under the guidance of U.S. 
Attorney Coffin, the DEA, and FBI revealed an organization that 
was responsible for bringing up to 10,000 bags of heroin into 
the Rutland area on a continual 10- to 14-day daily basis. It 
was hard to fathom the depth of the addiction in this area that 
would require that amount of heroin. We were all shocked. This 
was our first epiphany. We could no longer follow the methods 
deployed in the past if we were going to move the ball down the 
field. The demand for opiates was outstripping our ability to 
be effective.
    The second epiphany came on September 26, 2012, at about 6 
p.m. on Cleveland Ave in the city of Rutland, Vermont. It was 
on that day that we lost one of our bright and upcoming stars. 
Carly Ferro, age 17, was leaving her place of work and entering 
into her father's car to drive home when she was struck and 
killed. Carly was killed when a car operated by an individual 
who is alleged in court papers to have been huffing aerosols 
lost control of the car and struck her. The incident 
represented another critical point in Rutland's history where 
the grit and determination of her people was defined. This 
tragedy became a rallying point--a painful realization that 
what was happening in our city had to stop. The human costs 
were too high.
    The non-traditional partners we had assembled became 
focused on creating metrics to measure where we were, and where 
we needed to go. We began meeting on a regular basis and began 
to follow a path and a model championed by Chief Mike Schirling 
of the Burlington Police Department known as Community 
Intervention Team. The vision was to join all resources 
together and create a multiplier force to affect the quality of 
life in Rutland. We brought to the table social services 
agencies, elected officials, police resources, the domestic 
violence advocacy community, drug court, corrections, 
prosecutors at the federal, State, and local level, economic 
development officials, housing coalition officials, the faith 
community, mediation services, neighborhood citizens, and many 
others.
    In the early stages, the group talked and worked on 
strategies to create metrics using data to measure what success 
looked like. We worked on supporting and advocating for a 
methadone clinic. We worked on systems to better communicate 
across traditional and non-traditional partners. The energy was 
amazing.
    The final epiphany came when Senator Leahy's staff located 
a grant opportunity from the United States Department of 
Justice Bureau of Justice Assistance. Our coalition refocused 
and developed a grant application that created the name Project 
VISION, known as Viable Initiatives & Solutions through 
Involvement of Neighborhoods). The grant created a blueprint 
using outcome-based modeling that we are following to execute 
our strategy.
    We did not receive the grant. We think our good friends at 
BJA may have gotten this one wrong. But we did not give up.
    Chairman Leahy. They did get it wrong.
    [Laughter.]
    Chief Baker. The grit and determination of Rutland shined 
once again, and we moved forward. We continued to execute our 
strategy, and we now have an operating structure in place. We 
have stayed faithful to the concept of utilizing research to 
validate our processes.
    Project VISION serves as an umbrella group that coordinates 
the functions of three committees. Those committees are Crime 
and Safety; Substance Abuse, Prevention, and Treatment; and 
Neighborhoods and Housing. Each committee is working on unique 
goals to their individual committee with the understanding that 
they stay faithful to Project VISION's key values of 
collaboration for the greater good and renewed focus on the 
positive.
    As a result of the collaboration of resources, the Rutland 
City Police Department is now host to a variety of non-
traditional partners who operate on the guiding principle that 
the issues we face associated with substance abuse, mental 
health issues, and quality of life in our neighborhoods are 
interconnected. That interconnection requires an integrated 
response.
    Today, housed in the Rutland City Police Department 
building, we have two social workers from the Rutland County 
Family and Children Center, a domestic violence advocate from 
the Rutland County Women's Network and Shelter, an Assistant 
Attorney General, an emergency crisis intervention specialist 
from Rutland County Mental Health, a Rutland County early 
intervention coordinator from the Rutland County State's 
Attorney's Office, a school resource officer, an animal control 
officer, a crime analyst, and--on a part-time basis--a City of 
Rutland building inspector. These resources are coordinated by 
Captain Scott Tucker, the newly named executive director of 
Project VISION and the commander of the newly formed Community 
Outreach Division in the Rutland City Police Department.
    In the police department, we are embracing data and 
technology to identify where we apply these coordinated 
resources: never missing an opportunity to do a case review, 
create a system of better communications, and providing focused 
prosecution for those causing the most harm to our community. 
The effort coordinated daily is brought together on a bi-weekly 
basis when all committee members attend a mapping meeting. In 
the mapping meetings, we look at the locations and individuals 
that are doing the most harm to our community. Based on that 
data, we develop integrated solutions to address each of those 
individual situations. As an example, in many cases the 
underlying issues of substance abuse and/or mental health 
issues have led to family violence or neighborhood unrest. By 
having all the resources at the table, we can develop 
strategies and a response that include more than a police 
response. Unlike in the past, police suppression is not our 
first or our only choice. We are working at root-cause issues.
    It is important to note that we do still support and apply 
aggressive law enforcement to deal with those who choose not to 
meet our community norms and who do serious harm. As an 
example, the sources of heroin that make a conscious decision 
to come to Rutland to deal need to understand that their 
behavior is not going to be accepted or tolerated. That is why 
we work closely with the Vermont Drug Task Force and our 
federal partners to apply enforcement resources. We pay close 
attention to those who choose to do harm in the form of 
violence against women and children, not accepting that 
addiction is the cause.
    To demonstrate the determination of this great city, I 
would ask anyone in the room who is associated in any way with 
Project VISION to please raise your hands.
    Chairman Leahy. That answers that question.
    [Applause.]
    Chairman Leahy. I would note for the record, because this 
will be a part of the permanent record of the U.S. Senate, that 
at least half the hands in the room went up. And then they were 
applauded. I think that tells the story right there.
    Go ahead, Chief.
    Chief Baker. Senator, these are the faces of determination 
in our community.
    As I close, I want to thank all those partners who have 
worked to make our story worthy of telling in front of this 
Committee. There are too many to mention, but you know who you 
are.
    Senator, I want to thank you, Representative Welch, I want 
to thank you. Senator Leahy, thank you for your unwavering 
support of the city of Rutland. It is appreciated by all of us 
who are working tirelessly to get this right.
    Thank you.
    [The prepared statement of Chief Baker follows:]
    Chairman Leahy. Well, thank you.
    [Applause.]
    Chairman Leahy. Rutland is a city well worth helping. It is 
an integral and important part of Vermont, and we Vermonters 
treasure it.
    Dr. Harry Chen was appointed Commissioner of the Vermont 
Department of Health by Governor Shumlin in January 2011. 
Before that, he spent 20 years as an emergency physician at 
Rutland Regional Medical Center and served as medical director 
from 1998 to 2004. I mention that because Dr. Chen knows this 
area very well. He had previously been on the faculty at GW 
University Medical Center, and now also teaches at the 
University of Vermont College of Medicine. He was a member of 
the Vermont House of Representatives. John Tracy in my office 
tells me how important it was to him that you were on the 
Health Care Committee and served as vice chair of that 
Committee.
    Dr. Chen, I could go on about you all afternoon, but I will 
let you speak for yourself. Please go ahead, sir.

   STATEMENT OF HARRY L. CHEN, M.D., COMMISSIONER OF HEALTH, 
                      BURLINGTON, VERMONT

    Dr. Chen. Thank you, Senator Leahy, and my sincere thanks 
for holding this hearing to highlight this extremely important 
issue.
    Vermont brought the problem of addiction to heroin and 
other opioid drugs to national attention this year. You have 
heard about the stark numbers. More than 50 Vermonters die each 
year from opioid overdoses. Deaths from heroin have doubled 
between 2012 and 2013, and nearly 4,000 Vermonters are in 
treatment for opioid addiction; over half of them, tragically, 
are young adults. And even more are waiting for treatment.
    Vermont's experience has become the talk of the Nation, 
and, alas, for good reason. If it can happen here, in a mostly 
rural State made up of close-knit communities, blessed with 
natural beauty, where health care is nearly universal, with 
residents recognized as being among the healthiest of 
Americans, it can happen anywhere.
    From my viewpoint, addiction must be recognized as a public 
health problem and treated as a chronic illness. Addiction 
results from bad decisions. Those bad decisions quickly move to 
a disease. The end result is a chronic medical condition with 
profound implications for the individual and society. That is 
why Vermont is taking a comprehensive public health approach to 
the problem of substance abuse and addiction that involves 
prevention, early identification and intervention, an array of 
treatment services, and recovery supports.
    It is now well accepted that we cannot simply arrest our 
way out of the problem. A bill passed just last week by the 
Vermont Senate acknowledges that by diverting non-violent drug 
offenders from the criminal justice system, instead referring 
them to treatment as soon as possible.
    And addiction is not someone else's problem. It is our 
problem. As a longtime former resident and physician in the 
Rutland area, I, along with virtually everybody in this room, 
can point to good kids from good families whose lives were 
taken over by the horrors of opiate addiction.
    With the opening of the West Ridge Addiction Treatment & 
Recovery Center in November 2013, we marked a milestone in 
Rutland County and for our State. We now acknowledge that 
addiction is a chronic illness, like diabetes and heart 
disease, requiring a similar approach to prevention and 
treatment. We believe we are on the right path. Let me describe 
our path in a little more detail.
    The Vermont Department of Health has prevention consultants 
in our 12 district offices, including Rutland. Their role as 
local experts is to educate community members, help organize 
prevention efforts, and support coalitions with technical 
assistance to help implement proven prevention strategies. We 
are fortunate to have a series of prevention grants through 
SAMHSA. These grants have allowed us to fund community 
coalitions so they have the resources to implement local 
prevention programs. Rutland is one of our Partnership for 
Success communities. Through their grant, they are focused on 
underage drinking, binge drinking, and prescription drug misuse 
among youth. They work on underage drinking, partnering with 
local law enforcement. The grant also supports coalitions to 
promote information about proper storage and safe disposal of 
unused drugs, publicize safe drug drop-off locations and 
promote take-back events, encourage pharmacists to share 
specific cautions with patients when they pick up prescriptions 
for controlled substances, and encourage prescribers and 
dispensers to use the Vermont Prescription Monitoring System as 
part of their routine practice when they prescribe controlled 
substances.
    Last year, the Health Department also received a grant from 
SAMHSA to expand early alcohol and drug abuse screening, brief 
intervention, referral and treatment services for adults over 
the next five years. The goal is to make this a part of the 
regular health care practice. In Rutland, the free clinic is 
one of those provider sites.
    The Health Department administers both the SAMHSA block 
grant and Medicaid funds to support outpatient, intensive 
outpatient, residential, and medication-assisted treatment. We 
aim to ensure that everyone and anyone who needs treatment can 
access the right treatment as soon as possible.
    With the opening of West Ridge in November and BAART 
Behavioral Health Services in the Northeast Kingdom in January, 
the State is implementing the Care Alliance for Opioid 
Addiction. The Care Alliance is a partnership of treatment 
centers and clinicians around the State using a hub-and-spoke 
model to offer medication-assisted therapy to Vermonters in 
need. The treatment centers, or the hubs, will serve patients 
with complex needs. Hubs offer comprehensive assessment and 
specialty treatment with methadone or buprenorphine, providing 
treatment much closer to home for many.
    Connected with the hubs are the spokes--the Blueprint for 
Health practices and other primary care practices that treat 
patients using buprenorphine. Patient care at a hub or a spoke 
is supervised by a physician and supported by a network of 
community-based services aimed at our goal: enabling patients 
to be successful in life, work, and as family members. This 
system of care gives a health home for people addicted to 
opiates.
    We also work closely with the criminal justice system to 
support both drug court programs and reentry services for 
people with addiction. To be effective, it is imperative that 
treatment services are tailored to people's specific needs. 
Clearly a person in the criminal justice system will need a 
different treatment regimen than a young mother who has just 
delivered a baby.
    The Turning Point Recovery Centers are also supported with 
grants from the Health Department. We have 11 recovery centers 
around the State, including one in Rutland. The goal is to 
support all paths to recovery and to offer peer support to 
people who are trying to maintain recovery. The treatment 
centers work closely with the Turning Point Centers to ensure 
that clients make connections with peer support volunteers.
    So there are a couple questions I wanted to specifically 
address that were posed to me. One, what do communities need to 
do to get ahead of the problem? In Vermont, we look to the 
evidence. Research has shown that a comprehensive approach 
using principles of effective prevention, intervention, 
treatment, recovery, and enforcement is most effective. Single-
strategy approaches may solve one part of the problem or 
another, but will not hold up over the long term.
    First, a community must make a comprehensive assessment to 
determine what their risk factors are. For example, before 
Rutland had acknowledged that they did not have an opioid 
treatment program, they had to acknowledge that and agree to 
create one. Getting to this point requires community education 
and discussion. Messages from key community leaders, like the 
mayor or the police chief, are key to raising community 
awareness.
    Next, organize a group of community stakeholders to lead 
planning efforts. This group can establish goals and measures 
so that residents understand how the community is progressing 
in addressing this problem.
    Finally, evaluate progress to ensure forward movement. As 
the saying goes, it truly does take a village of everyone 
working together to get ahead of the complex problem of opioid 
abuse.
    What about preventing relapse and recidivism? Research 
shows that a person needs to be connected to treatment and 
recovery support for at least 90 days to get a firm foundation 
in recovery. It is important to have various levels of care 
available so that treatment can be tailored to individual 
needs. Some need intensive outpatient treatment, some need 
detox and residential care, stabilization and transition to 
outpatient care. Medication-assisted therapy, such as is 
provided through The Care Alliance for Opioid Addiction, is the 
evidence-based treatment indicated for opioid addiction.
    Recovery services are essential for making new connections 
with people who do not use drugs. Changing one's environment is 
key to long-term recovery. This may mean getting sober housing, 
learning employment skills, whatever it takes to build a new 
life.
    The Agency of Human Services works hard to ensure that 
comprehensive wraparound services are available to meet a 
client's needs. This is essential to preventing recidivism, and 
it is a priority of AHS.
    Two recent national reports underscore that all three 
branches of State government are committed to finding 
solutions. A report from the Trust for America's Health 
commends Vermont's use of all 10 nationally recommended 
strategies to reduce prescription drug abuse and overdose. A 
National Safety Council report credits our State as one of only 
three to meet all of its standards on State leadership and 
action, prescription drug monitoring, responsible prescribing, 
and overdose education and prevention.
    As we work to address the demand side of the equation, we 
cannot underestimate the power of prevention. We see hope and 
progress in the 2013 Vermont Youth Risk Behavior Survey results 
that shows use of tobacco, alcohol, and prescription drugs by 
Vermont youth declined since 2011--all priorities for our 
community-based prevention efforts. Investing early in the 
health of young people clearly yields the best return on 
investment.
    Thank you, Senator Leahy and Representative Welch, for 
listening to this testimony on this important issue.
    [The prepared statement of Dr. Chen appears as a submission 
for the record.]
    Chairman Leahy. Well, thank you. Thank you very much.
    I should note, incidentally, that all of the statements of 
the witnesses will be in the record in full. And I should also 
point out that we have other statements--Joseph Kraus from 
Project VISION and from other law enforcement officers, EMTs, 
judges, education providers, and community members.
    But I also want to note that we are doing this somewhat 
differently than we normally do. I find that sometimes the 
things that really get the most attention in the Senate are 
when somebody says, ``Let me tell you a story,'' and I get 
specific stories. So I am inviting anyone listening to submit 
testimony to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="acc3dcc5c3c5c8f3c4c9cddec5c2cbecc6d9c8c5cfc5cdded581c8c9c182dfc9c2cdd8c982cbc3da82">[email&#160;protected]</a> Or you 
can go on the Committee's Website, and up until this Friday we 
will take testimony or comments you might give. There are cards 
with that information in the back.
    I have found that as technically adroit as I am with 
computers, I am usually brought up short, if not by my kids, by 
my grandkids. When a five-year-old asks to go on a particular 
Website, I say, ``I will call it up for you''--you can hear me 
saying this, Chief, to get to the Website. My grandson takes 
the mouse out of my hand and says, ``Let me take over because 
it gets very complicated.''
    [Laughter.]
    Chairman Leahy. So we have the information for submissions 
printed out on a card. I saw my staff going, ``Don't try to 
explain it. Just give them the card'' because the email address 
is complicated. But the point is that--and I will be sharing 
these with Congressman Welch--do send in your stories of things 
that worked, but also of things that did not work, because it 
is helpful.
    Now, one thing that does work, I believe, is the Boys & 
Girls Clubs, and Mary Alice McKenzie is the executive director 
of the Boys & Girls Clubs of Greater Burlington. She has worked 
with a formal task force aimed at cutting off gang activity, 
working with members of law enforcement, and the child welfare 
community. Marcelle and I have gone by--I have lost count of 
the number of times we have gone by the Boys & Girls Clubs in 
Burlington. We have seen her take young people who many times 
because of where they live or who their families are could have 
been at great risk, and work with them to help them stay clear 
of drugs, to stay clear of addiction.
    So, Mary Alice McKenzie, the floor is yours.

 STATEMENT OF MARY ALICE MCKENZIE, EXECUTIVE DIRECTOR, BOYS & 
     GIRLS CLUBS OF GREATER BURLINGTON, BURLINGTON, VERMONT

    Ms. McKenzie. Thank you so much, Senator. I cannot tell you 
how grateful I am that you are holding the hearing today, 
grateful to Congressman Welch for being here to support this, 
and incredibly grateful that you asked me to testify to what I 
hope is to give voice to the interest of children. And I think 
in the discussion we are having in the State we love so much, 
the interest of children has not yet become the centerpiece of 
the discussion in the way the Boys & Girls Clubs around the 
State believe it should be. And so I want to thank you for 
allowing me to hopefully give voice to the interest of 
children, and in that regard, I also want to acknowledge that 
my colleagues from other clubs are here to give their support. 
Larry Bayle is here from the Rutland Club, Mike Reiderer is 
here from the Vergennes Club, and Beth Baldwin Page is here 
from the Brattleboro Club. And I want to thank them for taking 
the time----
    Chairman Leahy. Would the three of them please raise their 
hands so we can see where they are? Oh, great. Thank you very 
much.
    Please go ahead.
    Ms. McKenzie. Now, as you know, because you have been so 
good to all of us at the Boys & Girls Clubs around the State, 
we are all different. We are smaller than others. Some are 
bigger, some are smaller. We may serve slightly different age 
groups. But we have a common mission, and our mission is to 
``inspire and enable youth in our communities, especially those 
who need us most, to realize their full potential as 
productive, healthy, caring, and responsible citizens.'' And so 
although we may differ in our political views, the size of our 
communities, the way we deliver our services, we are in 
solidarity with each other on how to execute our mission, and 
we have all independently, quite frankly, concluded that 
because of what we are witnessing in our community around 
addiction, that we cannot not engage, because if we do not 
engage on pushing back on the trends that we see, we will 
violate our reason for being. So we have engaged in slightly 
different ways, but we have all engaged.
    We agree with each other that the trends are really quite 
bad. The trends have gotten worse over the last decade. But we 
also believe that if we take coordinated and comprehensive 
community actions, we can make the difference.
    And so we are doing different things based on what our 
community needs. In Burlington, we started getting very 
concerned about what we were witnessing in our neighborhoods 
about three years ago. We started seeing evidence of 
trafficking in a way that we had not seen in my lifetime. I am 
a native. I have lived in Burlington my entire life. I have 
never seen anything, never thought I was going to see what I 
have been seeing in the neighborhoods.
    Most importantly, and of most concern, were the things that 
children were telling us. Now, at the Boys & Girls Club, we 
serve children from the ages of five through 19, so we truly 
are talking about children and youth. And we had children 
telling us that they were afraid to walk home at night, afraid 
to walk across the park, afraid to walk down North Street to 
their family apartment.
    They told us being followed, harassed, and assaulted by 
those under the influence of drugs, 13- and 14-year-old 
children telling us that they had been approached by people who 
were living in their neighborhood to carry backpacks or to 
serve as lookouts; 15-, 16-year-old girls told us of being 
offered money for sex by the same people who were selling drugs 
in their neighborhoods.
    We started having to make more and more reports to DCF 
about children who were being severely neglected because there 
was no food in the home, because there was no money left for 
food to feed these children.
    We learned very disturbingly of access being made to 
middle-school-aged girls in exchange for drugs. We heard about 
guns, and we heard about gang affiliations.
    Now, all of these things did not happen all at once. They 
were spread over a period of time, and we found ourselves 
making more and more reports. And then we looked around at 
ourselves, around the staff meeting table, and said, ``We can 
make all the reports in the world, all of the mandated reports 
to the police, to DCF, to parents, and it is not enough.'' 
Simply making reports and expecting somebody else to fix the 
problem is not going to fix the problem.
    And so we started to dig in and trying to find out what 
could we do, what did we have control over, what actions could 
we take to make it better in our community. We reached out to a 
number of people in positions of authority and people who had 
access to educational resources, because, after all, we are not 
the first community walking this path. Many communities have 
walked this path before.
    We contacted Boys & Girls Club of America. They sent their 
director of delinquency and gang prevention to Burlington for 
three days to take a look at the situation, to do training, to 
leave us with educational materials and some tools that we 
could implement to try to get at how bad was the problem, 
because, quite frankly, we were not sure how bad the problem we 
were dealing with was. This was an invaluable source of help 
for us.
    We were also made aware of a particular grant that could 
have helped us with some start-up funds. However, when we 
received the invitation to apply, we realized that we did not 
qualify because the grant was written for a much larger urban 
area. And so that was a disappointment, but rather than say, 
okay, well, we cannot do anything because we are underfunded, 
we reached back out to somebody more local. We reached out to 
the United Way and, in particular, Martha Maksym, who has been 
an absolutely incredible support for us. And together with the 
United Way, we decided we are doing two things: We partnered 
with Tris Coffin and his group around the opiate effect panels 
to educate our community about the problem, and we also started 
looking for flexible funding, which, thankfully, we were able 
to find, and so we used the money to contract and collaborate 
with Spectrum--again, a knowledgeable source, Spectrum Youth 
Services, in the business of treatment--to work with us to say 
what are the best practices. How do we create a culture of 
health as opposed to a culture of addiction? They are right in 
our backyard, and Spectrum and the Boys & Girls Club have said, 
you know, Boys & Girls Club, if you do not do your job well, 
addicted youth are going to end up with Spectrum, so let us 
come together and use what we both know to improve the chances 
for at-risk kids.
    We also contacted the Burlington Police Department, and our 
incredible chief of police, Mike Schirling, was right there 
with training and educational services and resources for us.
    Most important, we started listening to our kids in a very 
different way. We all have a tendency to lecture kids. We all 
have a tendency to tell them what they should do. I think often 
we do not just ask them, ``What do you think? And what do you 
need?'' We surveyed and we are still surveying our kids on a 
very methodical basis. We have held focus groups and panels, 
individual conversations. I myself have talked to hundreds and 
hundreds of kids, and they have told us a lot. They have told 
us, ``If you talk to me in high school about drugs, it is way 
too late. I smoked or my friends smoked their first joint when 
they were eight or they were nine or they were 10''--pick a 
number. It is incredibly young. It is shockingly young.
    ``If you tell me, `Just say no to drugs,' or if you tell me 
if I do drugs I am going to die, that is a joke to me, because 
I know people who bring drugs to school, they bring drugs to 
parties, they do drugs, and nobody I know has died yet. So do 
not just tell me if I do drugs I am going to die.''
    ``If you only tell me about drugs when I am in health class 
in high school, that is also a joke to me, because it is a 
check-off-the-box exercise.''
    ``If you think that I am serious, then treat me 
seriously,'' is what they are saying. They are saying, ``Tell 
me the facts. Tell me what drugs do to my brain. What do drugs 
do to my looks? What do drugs do to my prospects? Give me the 
facts. Take me seriously.''
    These messages are coming from all different kinds of 
kids--rich, poor, middle class, natives of Vermont, from places 
far away--but they are common messages.
    Now, there is a different set of messages and they are much 
more complex from the kids who are most at risk, who I believe 
and the rest of the clubs believe are in the minority. However, 
as we all know, the minority can affect the majority. These are 
children that we really do not talk much about because we do 
not know how to deal with them in Vermont. We all see the news 
when people are arrested here for trafficking drugs. They come 
here from the Bronx, Brooklyn, from Chicago, wherever. And we 
are mad, we are outraged that they bring these substances here 
and prey on the vulnerable. But what we do not talk about is 
that these people and people like them have been coming in and 
out of Vermont for a very long time, and they have extensive 
networks here, and they have relationships here, and they have 
borne children here, and their children and the children who 
are born into the households who are highly addicted are the 
most at-risk children in our community. And we do not have many 
tools in our toolbox for intervening early and effectively.
    Unfortunately the only tool that we have had in our toolbox 
is to arrest and incarcerate when they reach a level of 
criminality that we can no longer ignore them. These are among 
the children who need us most, and we must confront this issue. 
And I do know that the issues are very complicated. They 
involve confidentiality rules and philosophies, prosecutorial, 
judicial, defense bar, legislative ideologies that are very 
uncomfortable to challenge. But we believe that we must address 
the needs of these children or they are going to be Vermont's 
next-gen inmates--something none of us want.
    Thankfully the majority of our youth are not that 
complicated in figuring out how to help them. They have told us 
what they want. They want safe parks. They want safe streets. 
They want places to go on Saturday nights. They want more team 
sports. And they want clarity about the rules of health and 
safety.
    At the Boys & Girls Clubs, we are listening. We have done 
soul searching. We have taken some actions. In Burlington, we 
have looked at our park across the street from our main site. 
There is a small, rundown storage building. We asked the mayor 
of our city if we could take it over. He said, ``Absolutely. 
Bring it on.'' We found a private donor. We are taking the 
building over, renovating it, and turning it into an academic 
center. Not only will we be able to serve more kids more 
deeply, but we will improve the safety profile of the entire 
neighborhood.
    We have adopted the United Way language around drug abuse 
and prevention, and we have adopted their goal, which is that 
all children and youth are free from addiction and its 
consequences, and we walk the talk, which is incredibly hard 
because walking the talk means that youth who you are trying 
desperately to save, if they continue to participate in illegal 
and destructive behaviors, then they have to be removed from 
the Boys & Girls Club. This is very hard to do. But we have 
done it. We have done it after a lot of soul searching. As a 
result, more youth are coming to us because they believe that 
we are going to provide safety for them.
    We have increased our transportation capacity, so we are 
bringing kids home after dark if they need a ride. We have 
opened our club on Saturday nights. We have found more ways to 
get more kids in the club right after school, during the high-
risk hours between three and six o'clock. We have increased all 
of our programming, including our academics and our team 
sports. We serve dinner six nights a week. It takes funding to 
be able to do this. We would not be able to do what we are 
doing without our board of directors, who also sees the 
challenges of addiction in the community and has said we must 
do what we must do. And so we will find the funding. We must 
find this funding to be sustainable, and we are not there yet 
on all the efforts, but we are resolved to getting there.
    So some of these things are not rocket science. They are 
really boots-on-the-ground kind of actions. But we think that 
for our community, this is what is needed.
    Now, every club is doing the same or similar things. In 
Rutland, Larry Bayle is actively participating with Project 
VISION.
    Beth Baldwin Page is working with the local police in 
Brattleboro so that there is a coordinated response to any 
incident involving a child or youth.
    In Vergennes, Mike Reiderer has long been known as a leader 
in delivering prevention programs.
    There is also serious mentoring going on for other 
communities who want something like a club or a Boys & Girls 
Club. Larry Bayle is mentoring the communities of Randolph and 
Lyndonville right now because we all recognize that we 
individually and collectively have to do our part.
    I think the good work that has been done so far is 
obviously early stage and, quite frankly, I think it is the 
easy work that has been done. The hard task is ahead of us, and 
that is creating a unified front on all fronts: prevention, 
intervention, including treatment, and suppression.
    And I want to close by emphasizing one thing. I know that I 
have been talking about prevention measures and real boots-on-
the-ground kind of strategies. But I have to say that 
coordinated and well-done law enforcement really, really 
matters. In Burlington, when the U.S. Attorney's Office, the 
federal agencies, Burlington Police under the leadership of 
Mike Schirling, all started working together, we noticed. Our 
neighborhoods did get more safe, and we have to remember that. 
It cannot all be on their shoulders. We all have to do our 
work. But we have to allow them to do their work, too, because 
without them, we do not have a chance.
    So I want to thank you so very much for allowing me to 
testify.
    [The prepared statement of Ms. McKenzie appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you very much. You and I have 
had the privilege of being----
    [Applause.]
    Chairman Leahy. You and I have had the privilege of going 
to some of the annual Boys & Girls Clubs breakfasts in 
Washington, DC, and I think, like me, you have been almost 
moved to tears, if not moved to tears, by some of the stories 
of young people who have turned their lives around with the 
help of the Boys & Girls Club and have now become such models 
in their community.
    I have told this story many times, and I will tell it very 
briefly here. A number of years ago, we were trying to get some 
grants from the Department of Justice and back to Vermont, and 
I called a police chief of a small police department and said, 
``I think I can get you a grant for a couple more officers.'' 
He said, ``Do you know what I would rather have?'' And I said, 
``What?'' And he said, ``I would rather have a Boys & Girls 
Club.'' He said, ``I do not need to arrest more kids. I need to 
have a place for more kids to go so they will not be 
arrested.''
    Really, that is what it is all about.
    Colonel L'Esperance is a 27-year veteran of law enforcement 
in Vermont. In 2009, he was named director of the Vermont State 
Police. He has specialized in narcotics investigations, 
criminal highway interdictions, and worked extensively with the 
Vermont Drug Task Force, including as commander of the Criminal 
Division at State Police Headquarters. I can go through all the 
many accomplishments. He has a bachelor's degree in criminal 
justice from Champlain in Burlington.
    Colonel, you are somebody I have called dozens of times 
when I have had questions on programs that might or might not 
work, so please, sir, it is all yours.

  STATEMENT OF COLONEL THOMAS L'ESPERANCE, DIRECTOR, VERMONT 
                STATE POLICE, WATERBURY, VERMONT

    Colonel L'Esperance. Thank you very much, Senator. If I 
could repeat verbatim what Mary said about prevention and 
treatment--excuse me, prevention and education, I would do 
that. I think that was the most compelling testimony I have 
heard about that, and I think that is the core of where we need 
to go.
    Ms. McKenzie. Thank you.
    Colonel L'Esperance. I would like to start by thanking 
Senator Leahy and Congressman Welch for the opportunity to 
appear before the Senate Judiciary Committee to address the 
many challenges that we are facing in Vermont related to heroin 
and opiate addiction. From a law enforcement perspective, the 
numbers are staggering. According to data provided by the 
Vermont Drug Task Force, in just the past two years alone, we 
have seen a 482-percent increase in the number of heroin 
investigations initiated by drug investigators and a 247-
percent increase in the amount of heroin seized as a direct 
result of those investigations.
    Instead of focusing on the numbers, however, I would like 
to use my time here to focus on the solutions. Heroin and 
opiate addiction is a very real and complex issue that requires 
a dynamic response from all the stakeholders involved. For 
every statistic cited about heroin there is someone behind it 
who struggles every day to either stay clean or seek out their 
next fix. There are no easy answers, but we can and we will 
make progress as long as we are united and determined. From a 
statewide perspective, we must combine all our efforts and 
resources to reduce those abusing opiates through treatment, 
stop the flow of heroin into the State with strong enforcement, 
and prevent another Vermonter from heading down the road of 
addiction through education.
    I applaud Governor Shumlin for bringing this issue to the 
forefront in his recent State of the State address. As the 
director of the Vermont State Police, I will continue to 
strengthen our statewide enforcement efforts while building 
coalitions with our partners in treatment and prevention. Law 
enforcement must continue to disrupt supply lines that are 
responsible for bringing large quantities of heroin into 
Vermont and further work to prevent drug traffickers from 
getting a foothold in the State. I am pleased to say that I can 
report on a number of achievements we have made.
    This past year the Vermont Drug Task Force conducted 
multiple high-level arrest sweeps across the State in 
Bennington, Springfield, and St. Albans. The primary goal of 
these operations was to dismantle heroin distribution rings 
operating within our communities and subsequently damaging our 
quality of life. I can say without hesitation that these 
operations were a success not only because we slowed the supply 
of heroin by arresting those responsible for distributing it, 
but because we were able to impact so many other lives in 
positive ways.
    One such story came to me through the form of an email from 
a mother whose adult daughter had been struggling with her 
addiction. Her daughter was eventually arrested in the drug 
sweep in Springfield. It was clear from her email that she felt 
she had lost her daughter to heroin until the day she was 
arrested. She said unequivocally that her daughter's arrest 
ultimately saved her life. After the sweep, her daughter was 
able to break free from a bad relationship, get the necessary 
treatment she needed, and eventually reunite with her own young 
children. She expressed appreciation in her email to law 
enforcement for intervening at a time in her daughter's life 
when nothing else seemed to be working. There are many similar 
untold stories resulting from the work being done by the Drug 
Task Force. Each story has a positive message of appreciation, 
resolve and a commitment to taking the community back from drug 
dealers.
    The Drug Task Force truly provides a specialized and 
valuable resource to State and local law enforcement agencies 
in our statewide efforts to reduce drug supply. Time and time 
again, the task force model proves to be one of the most 
successful management tools used by law enforcement today in 
Vermont and across the Nation.
    In addition to the achievements of the Drug Task Force, I 
have been working with my command staff to implement a plan to 
issue naloxone to every trooper in the state. It is called 
Narcan as well. Having this drug in the hands of first 
responders will ensure that it is available, if necessary, to 
reverse the effect of a drug overdose that could potentially 
mean the difference between life and death. This is an 
important step to further our public safety mission and one 
that I am proud to support. We are working hand in hand with 
our Department of Health to ensure this process moves forward.
    As a rural State, we face unique challenges in our efforts 
to curb drug abuse and the effects it has on our citizens. We 
do not have the luxury of the vast resources that exist in 
urban cities or suburban regions, so to be effective we must 
pool our resources and collaborate together in order to solve 
these problems. Although it can be more difficult to find 
solutions in a rural State such as Vermont, the fundamentals of 
illegal drug markets are the same everywhere. Where there is a 
demand, there will always be a supply. We cannot ignore this 
fact, and we must work to both disrupt drug trade and reduce 
demand. Commissioner Flynn is 100 percent focused on this 
issue.
    This past January we invited Dr. William Roberts of the 
Northwestern Medical Center to speak to the entire command 
staff of the Vermont State Police about addiction. Dr. Roberts 
is a specialist in pain management and a leader in Vermont on 
addiction issues. I believe that forging these types of 
partnerships between law enforcement and the medical community 
is essential to breaking down barriers between the two groups 
and generating an intelligent and comprehensive approach to 
resolving this problem.
    It is often said that law enforcement cannot solve this 
problem alone, but the truth is that no one can solve it alone. 
We must continue to build strong relationships like the one the 
Vermont State Police now has with Dr. Roberts at the Department 
of Health and Bob Bick of the Howard Center in our effort to 
drive down demand and ultimately reduce the influx of heroin 
into the State.
    As we move forward, I will continue to rely on the 
tremendous support we have received and continue to receive 
from both the State and Federal Government. Without the funding 
secured by Senator Leahy over the years--and it does go back 
decades--our ability to operate the Drug Task Force at the 
level of success it enjoys today would not be possible. 
Subsequently our ability to positively impact local communities 
and rural sections of the State would be severely diminished.
    With your help, we will continue to focus on our mission of 
preventing further abuse through education and outreach as well 
as reducing both the supply and demand of heroin through strong 
enforcement and an equally strong treatment response.
    I would like to thank Senator Leahy, Congressman Welch, and 
the entire Committee for the opportunity to participate today. 
Thank you.
    [The prepared statement of Colonel L'Esperance appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you very much.
    [Applause.]
    Chairman Leahy. I would also note that Jeff Unger of 
Senator Sanders' staff is here, too, and this is something that 
all three members of our delegation are trying to work very 
closely on, also with the Governor.
    Let me ask the U.S. Attorney a question. You talked about--
and it is a tragic case--going with the father of this young 
man who died to high schools and talking to students. And I 
think we all agree that the ``Thou shalt not'' kind of thing is 
not very effective. It has got to be a lot more than that.
    What do you draw from those conversations? What do you feel 
gets across to the students?
    Mr. Coffin. I think it is really important for the students 
to have somebody that they can relate to, who they think is not 
trying to exaggerate or moralize to them. And one of the great 
things is Skip is just excellent at that. He was a math teacher 
for 30 years. He gets high school kids. He is very eloquent. 
And really I think the biggest message that people get is just 
the power of what he is saying. It is clear that this is 
something he carries with him every single day of his life. And 
for kids to see what that is like really opens their eyes. They 
see the film. The film has a lot of other people who--you know, 
Derek Hallquist did an amazing job capturing kind of this real 
straight, direct human stuff and this truth and honesty. And I 
think kids wake up to that and listen to that.
    Chairman Leahy. Well, do you get feedback on, ``Well, that 
is somebody else. That does not affect me'' ? Or do they really 
ask questions?
    Mr. Coffin. Yes, a little bit. You get all kinds of 
response, and some of it is, ``Oh, come on,'' a little roll of 
the eyes. But then when they think about it a little bit, you 
know, it is like a Russian roulette situation. It might not be 
you, but, you know, it was that guy. He is here to tell me 
about it, and it was him, and he started off taking a few pills 
and, you know, threw his whole life away. And there is this 
guy, he is doing a 16-year bit in federal prison. And it gets 
their attention.
    Chairman Leahy. I remember the pediatrician who spoke up in 
St. Albans at one of these hearings.
    Mr. Coffin. Dr. Holmes, yes.
    Chairman Leahy. Dr. Holmes, whom we all know well, and he 
explained to parents that opiate addiction was a real problem 
among people of the age of their daughter. And they said, 
```Well, we will certainly be watchful for this.'' He said, 
``You have not been watchful soon enough. I am talking about 
your daughter.''
    Mr. Coffin. Right.
    Chairman Leahy. And I tell you, you could hear a pin drop 
in that room. That got everybody's attention.
    There was a sentencing hearing, I am told, last week in 
federal court in Burlington, a young woman, conspiracy to 
distribute heroin and cocaine. She had been an addict for 
years. Can you tell me what was unique about that case?
    Mr. Coffin. Sure. You know, there are a lot of things 
unique it and a lot of things that were sort of an archetype. 
This was somebody who got wrapped up with a very violent and 
serious high-level drug trafficker, three prior drug 
convictions, selling a lot of heroin and crack, and she got 
herself involved where she was doing all those things for him 
to feed her addiction. You know, a victim of domestic violence 
and a lot of other really terrible exploitation by this person. 
But she got into federal court, and unfortunately a lot of 
terrible things have to go wrong for somebody to end up in our 
court. But when they get there, it is not always the end of the 
story. And we have got an amazing court and an amazing 
probation office, and when somebody goes through our court, 
they get assigned a case manager to follow them. They can get 
access to first-class drug treatment, supports, and other 
things they do to follow them through and get them on the right 
road.
    And, you know, there is sometimes some tough love and there 
is sometimes some soft love, as the case goes on. And really 
what they do is they manage the case to make sure somebody does 
not fall off the path too far before they are pulled back onto 
it. And there are consequences for not complying, and there are 
rewards for complying. And this person was able, after some 
early slip-ups, to get into inpatient drug treatment, benefited 
greatly from that, maintained additional counseling throughout, 
urinalysis to make sure that she is really clean and not just 
hoping she is clean, and for eight months was able to remain 
clean and is on the right road. She is going to be under 
supervision by the same staff at the probation office for a 
period of time longer, but the sentencing judge was extremely 
pleased with that outcome.
    And that is not a unique outcome. It is one that does not 
happen all the time, but it is far from unique, and I think it 
is important to recognize.
    Chairman Leahy. It is a lot better than warehousing in a 
prison.
    Mr. Coffin. Absolutely.
    Chairman Leahy. I am going to go back and forth on this. As 
I mentioned before, I was born in Montpelier, and that is a 
particular type of city. Then when I practiced law, I lived in 
Burlington, first in private practice, then as a prosecutor. I 
now live on a dirt road in the town of Middlesex, Vermont. I 
mention three really different communities.
    So my question to Mary Alice McKenzie is: In Burlington, we 
have a Boys & Girls Club. What do you do in rural areas? My 
nearest neighbor is half a mile away. Now, the blessing of that 
is it is my son and daughter-in-law and an 11-year-old 
granddaughter. But what do you do in a rural area?
    Ms. McKenzie. Well, we have talked a lot about this with 
the Boys & Girls Clubs, the group of us, and it is tough in a 
rural area. But I think you start with what you have got. You 
look at what are your assets in the community, what do you have 
for youth, and you build on what you have. Almost everybody has 
got a school. Almost everybody has got a school that has got a 
gym. Almost everybody has got caring adults, maybe college 
students. So you have got something to start with. And if the 
goal is find out what the youth lack and try to plug that gap, 
then you use what you have got.
    Boys & Girls Clubs, however, do come in all shapes and 
sizes. There are some that are very tiny.
    Chairman Leahy. I know.
    Ms. McKenzie. You know. And the key is to keep an effort 
sustainable, so be very realistic about what assets you have 
that you can use and what is the plan going forward so that you 
do not start something one year and then you are done the next 
year. That is doing a disservice with you.
    As those of us who have mentored other communities say 
first and say very often, if you look to building a youth 
organization around public money, municipal budget money, you 
are going to fail. So the community has to support it, whether 
that is a $10,000-a-year support level or more than that.
    So I think you start with what you have got and you build 
on that, and you make it sustainable. And I really think you 
can be a very small community and make that happen if you have 
the will to do it.
    Chairman Leahy. Speaking of communities coming together, I 
am going to ask Chief Baker this. I made a comment in the 
cloakroom off the Senate. Several Senators were talking, 
talking about what we are going to do during the recess, 
because the House and the Senate are out of session this week, 
and I said that Congressman Welch and I are going to be holding 
a hearing in Rutland, Vermont. They said, ``Oh, the city that 
was on the front page of the New York Times.'' I said, ``The 
city is on the front page of the New York Times because they 
came together to address a problem. They came together because 
of a community response.'' And I said, ``I guarantee you, every 
one of you has a Rutland in your State, but have they come 
together?''
    So tell us a little bit about Project VISION. How has this 
helped in the turnaround?
    Chief Baker. Thank you for recognizing that, Senator. You 
know, we have had varying reaction to the media coverage we 
have here in the city over the last couple weeks, but many of 
us do take the same position you take, that we are there 
because we recognize we have this challenge. We recognize that 
the challenge is affecting the quality of life in our city. It 
plays out in family disturbances, neighborhood disturbances, 
acts of disorderly conduct, larcenies. And we recognize that 
the only way we are going to do this, as I said earlier, is all 
hands on deck.
    I think one of the things when we started this conversation 
a couple years ago--and some of the testimony here today fits 
exactly what I am about ready to describe--many of us operated 
in our old silos. You know, we hear this all the time in law 
enforcement, that law enforcement has these turf battles, and 
we operate in silos, and we do not share information. You know, 
it is the same story that has been repeated over 20, 25, 30 
years. What is real challenging--and I heard Mary Alice talk 
about this earlier--is when you start bringing in non-
traditional partners and you want to share information and they 
play from a whole different set of rules than you do when it 
comes to sharing information, if I want to talk to another 
police officer about someone who may be dealing drugs, I meet 
him in a parking lot and grab a cup of coffee, and I say, 
``Hey, this is what I am hearing.'' Try to have that with 
someone who has a mental health crisis worker who has a patient 
on their caseload or a social worker or somebody in the medical 
field, because of regulations around such things as HIPAA. It 
makes it very difficult to be able to have those conversations 
and break down those silos.
    The other thing that I think we found challenging is within 
those silos where there are only so many dollars on the table, 
and sometimes the best intended people will fight over quarters 
that are laying on the ground. And at the end of the day, I 
think what we have come to realize here in Rutland is fighting 
over those same dollars does not make sense.
    So what we need to do is everyone can hold onto their own 
dollars, everyone can hold onto their own grants, but how are 
we going to collectively take that and set metrics and figure 
out how we are doing better, and how are we going to do that 
collectively. And I think that has been the most revealing, 
most challenging, but the most strength-building exercises we 
have done, are around those kinds of conversations we have had, 
where people have had to put aside what their traditional 
beliefs are about how to get to the bottom of this problem. And 
it has built unbelievable partnerships, unbelievable 
relationships, and I will give you one example.
    Last Friday, the social workers that are housed inside our 
building, dancing around the issues of confidentiality and 
making sure that, you know, we are not violating the privacy of 
other folks. A conversation broke out with one of the social 
workers that led us to realize that there were two registered 
sex offenders living inside a residence that we would not have 
known about if, in fact, we did not have those kind of 
conversations around the water cooler.
    And I know when you came to visit us and we took you on the 
little tour upstairs, you know, I talked to you about the water 
cooler and the coffee pot. It is where it happens. It is where 
it happens. It is where we are finding out what is going on in 
our community that are putting members of our communities in 
harm's way, and the difference is because everyone is together, 
we are reacting to it collectively.
    And I am happy to report--it is about 2:35 right now--that 
those two individuals were arraigned at one o'clock today on 
violations because of the sexual registry. And that would not 
have happened, Senator, if we did not have those kind of 
relationships.
    Chairman Leahy. And I agree, and they are important. And it 
is also important to not fight over the quarters but rather 
fight for a result. And I think when some of my colleagues hear 
what you had to say, you may get invites to come to other 
States and tell them how to do it.
    Dr. Chen, I am not a medical person. I have heard that 
naloxone, which is used to counter the effects of an opioid 
overdose, and naltrexone, which blocks the high one might get 
and prevents relapses and can be administered every 30 days. 
Are these drugs good? Bad? Either? Both?
    Dr. Chen. Well, Senator, I think you have heard from 
Colonel L'Esperance about naloxone and it----
    Chairman Leahy. And he came in and briefed me in my office 
about that.
    Dr. Chen. It is a potentially life-saving drug and has a 
very--has a strong place in terms of harm reduction. So this 
past year, the legislature actually passed a bill in Vermont to 
both allow for naloxone to be administered, allowed immunity 
for people calling 911. So if you are using with somebody and 
they go down, you are able to call 911 without being afraid of 
being prosecuted. So it really has a place. It has a place in 
public safety vehicles. We have actually revised rules now in 
Vermont so it virtually can be carried in every ambulance that 
has an EMT on it. So those are all available.
    Chairman Leahy. So your department supports naloxone?
    Dr. Chen. Absolutely. But it is not a magic bullet. I think 
it needs to be part of a comprehensive approach, both in terms 
of prevention, intervention, and treatment.
    In terms of naltrexone, that is a drug where we are 
investigating how we might use it. We all thought perhaps in 
the past that Antabuse might be a wonderful drug for alcohol 
abuse, we do not use it much, if at all right now. And I think 
that we need to find the appropriate place for this naltrexone. 
One place that it seems like it might make some sense is to 
interface and link with the correctional system. So you have an 
inmate who is coming out of the correctional system who may be 
at particular risk for using again, and providing them this 
drug with a strong commitment to enter into treatment and to 
enter into community supports, this might be a reasonable 
strategy for them. So we are actually--in a few weeks, I am 
going to meet with the manufacturer of the drug.
    Chairman Leahy. As you do, to the extent you can, can you 
keep me and my office and Congressman Welch and Senator Sanders 
posted on that, what you are finding?
    Dr. Chen. Absolutely.
    Chairman Leahy. And, last, Colonel L'Esperance, one of the 
things I found probably the most difficult choice when I was a 
prosecutor is when to withhold prosecution. It is always easy 
to say, okay, technically this is a violation, I will 
prosecute. But then there are times you ask youself, does 
somebody deserve a second chance or not?
    You mentioned in your testimony, after one of the sweeps--
let me make sure I have got this right. You were contacted by a 
mother who told the story of how her daughter's arrest 
ultimately saved her life. How do we make a determination when 
it is time to try an opportunity or a program that might give 
someone a second chance? Is there some automatic formula? Or 
does this really require a judgment call, one at a time?
    Colonel L'Esperance. I think, Senator, that working hand in 
hand with the prosecutor to understand the background of the 
individual that we are talking about. I think in the world of 
heroin, there are only two people that do not benefit from it: 
the poppy farmer himself and the addict. Everybody in between, 
there is a profit there. So we----
    Chairman Leahy. That is an interesting point.
    Colonel L'Esperance. We need to focus on those individuals. 
Jail is a place for someone that profits from heroin 
distribution. There is no two ways about it. Those individuals 
that are addicted that need treatment need to be recognized 
early on in the process, and I think there are a number of 
programs now that are there that do this. But to give someone a 
second chance is what we are here for, whether it is Narcan--I 
never thought I would need immunity to save someone's life, I 
will be honest with you. It was the easiest decision I have 
ever made as colonel. And the positive response from law 
enforcement across the State, and I hope that every squad room 
and every crew in the State eventually has that, because that 
individual that has overdosed, it takes them from the jaws of 
death and they have a mother, a brother, or father, an uncle 
that would love nothing more for a second chance.
    Chairman Leahy. You know, we have a man who is now chief of 
emergency services in a major metropolitan hospital who tells 
the story about being a young resident at the University of 
Vermont, and there was a place called ``The Place'' in 
Burlington, where people could come with an overdose. And these 
young residents and interns were volunteering their time. There 
was no law that said they could do it. I just said there would 
be no prosecution, and the police said they would not surveil 
it. The one thing is they had to empty their pockets, give any 
drugs they had, partly because we wanted to test the drugs and 
see if strychnine and other things were going in it. This 
doctor tells me he was a week away from graduation. He goes out 
to the State Police barracks out on 40th at the time with a big 
bag of drugs. He had a ponytail and a Fu Manchu moustache. He 
comes walking in with this bag saying, ``Either this 
immunity''--which is not written down anywhere--``is actually 
going to work, or there goes how many years of medical training 
down the drain.''
    [Laughter.]
    Chairman Leahy. He hands it to the sergeant, and he said, 
``This was at The Place.'' He says, ``Okay.'' Leaves it there. 
He said, ``Do you want my name?'' He said, ``I do not want it. 
Leahy does not want it. Good-bye.''
    [Laughter.]
    Chairman Leahy. So talk about your immunity triggered that 
memory.
    Peter.
    Representative Welch. Well, you know, that story that you 
just said reminded me of the great Gillie Godnick. We were in 
Rutland, and he said, ``You know, Peter''--he educated me my 
first term in the Senate. He said, ``Sometimes you got to 
forget about principle and just do the right thing.''
    [Laughter.]
    Chairman Leahy. That sounds like Gillie, rest his soul.
    Representative Welch. Dr. Chen, a couple weeks ago I was up 
at the Howard Center, the treatment program, with the drug czar 
and the Governor, and there are a lot of adults coming in there 
and getting the treatment on the way to work. And this problem 
that we are facing is affecting all ages, the kids, but a lot 
of adults. And one of the causes that a lot of us, I think, are 
hearing about is the prescription, some would say 
overprescription, of pain medication that people get for very 
legitimate reasons, but then find that the powerful effects of 
that are tougher than to stop taking it or looking for some 
alternative when the reason for the prescription has long since 
passed.
    So the question I have is: What role is the medical 
community in the prescription of these powerful drugs playing 
in, adding to the burden? And what is it that we can do about 
that?
    Dr. Chen. So, Congressman Welch, your point is absolutely 
well taken. I think that the medical community does share 
responsibility in why we are all sitting here today. I think 
that if nothing else, the Governor's State of the State would 
certainly highlight for each and every physician who is 
practicing and prescribing in Vermont.
    I think that we have strategies in place that can improve 
that, whether it be educating physicians about appropriate 
prescribing, educating prescribers to use the drug data base, 
the Prescription Monitoring System, to ensure that people are 
not doctor shopping and diverting drugs to creating a set of 
kind of guidelines and rules that would really be universal 
precautions so that when you do prescribe opiates for a person 
on a long-term basis, you want to ensure that you get informed 
consent so people know what they are really getting into and 
what the risks are. You want to make sure that they are being 
screened for potential substance abuse. And you want to make 
sure that they are agreeing to work with you, as a partner with 
a physician, whether it be urine tests to make sure they are 
taking the drugs or not taking other drugs, whether it be pill 
counts. All of those things, I think, are important strategies 
that medical providers could use.
    And so right now we are working on some of those rules. I 
know in the workers' compensation bill are another set of rules 
that Vermont wants to use, even more stringent, as the 
``insurer'' to ensure that both people get adequate treatment 
for their pain but they can get back to work sooner, because it 
is clearly shown that the more opioids they get, the longer it 
takes for people to get back to work.
    Representative Welch. Thank you, Dr. Chen.
    Chief Baker, one of the challenges is how do you provide 
support to the person that is making the decision that they 
want to get off, and it has got to be tough for some parents 
whose kids have made the wrong choices here.
    What are your dealings with parents? And is that something 
where there are ways with this broad-based approach that can 
help parents help their kids?
    Chief Baker. My experience personally here as the chief, as 
I talk about often between my career in the State Police and 
being here as chief, I am very close to the citizens in Rutland 
just by the nature of what my position is. Ironically, just 
today I got an email from a woman who I spoke to about 10 
months ago who had a son who was addicted, and she emailed me 
today to tell me that her son was clean for about six months, 
and she was celebrating, as she said in her email, getting her 
son back.
    Representative Welch. But they need some support, too, 
right?
    Chief Baker. Absolutely. When you hear some of these 
stories from the parents who--you know, I do not know what this 
definition is--did everything right, for all of us in this room 
that are parents, and you listen to these stories, it is heart-
wrenching. And they just turn to anywhere they can to find 
help. And I do think that we are lucky we have some support 
groups in this community, but I think there has to be a way to 
support these folks that are fighting this with their kids. 
And, you know, they go to bed every night. You hear these 
conversations with these parents. They do not know where their 
kids are. They know they are abusing. They are going to bed. 
They are just waiting for that knock to come on the door. And 
to hear those stories over and over is heart-wrenching.
    And I think much of this, we do not sometimes measure the 
residual fallout from that for these parents, and I think it is 
absolutely crucial that communities create some space and be 
supportive of those folk that are going through it, because, 
you know, as the saying is, by the grace of God there go I. 
And, you know, it is heart-wrenching to hear these stories, and 
there is not a week that goes by--I have a woman who is waiting 
to hear from me now that wants to talk to me about her daughter 
who has been fighting addiction for over five years.
    Representative Welch. Thank you.
    Mr. Coffin, I know that sentencing issues are really 
important federally, and I know quite a while ago Senator Leahy 
had Judge Sessions appointed to the Sentencing Commission with 
a lot of debate about whether the old-style sentences that are 
still current law are a hindrance or a help. And, obviously, 
you are on the front line in your current job as the U.S. 
Attorney here in Vermont. Do you have any thoughts about 
whether there is room for sentencing reform that would be 
useful?
    Mr. Coffin. Yes, definitely. I think a lot of the academic 
research shows that a shorter period of time that is certain to 
be imposed is a greater deterrent than a longer period of time 
that is more of an uncertain consequence. And following up on 
that, Attorney General Holder has really charged us in a series 
of changes to how we charge our cases to look at more 
individualized assessments of each defender and their 
particular circumstances and their particular offense in 
determining what type of offense to charge, because in the 
federal system, and in other systems, too, the nature of the 
charges that the prosecutor brings can drive to a significant 
extent what the sentencing outcome is.
    Also, Attorney General Holder has more recently, in some 
memos last August, directed us to limit our charging of 
mandatory minimums in cases where people are low-level, non-
violent, and do not have serious criminal offenses. And I think 
those are really good changes, and, you know, one of the things 
I was lucky to be able to do. And our U.S. Attorney community 
nationally had some hand in crafting some of those changes.
    Representative Welch. Thank you.
    And, Mary Alice, I just want to ask you, I have not been to 
the Boys & Girls Club as often as Senator Leahy, but I have 
been there, and it is an incredible place with lots going on--
chaos in one area, people playing games, and then quiet in 
others where people are studying. It is really quite 
remarkable.
    But with those kids who are there versus you see kids who 
come in from all kinds of different families, some intact, 
others not, what are the things that the community can do that 
give the kids and the parents of those kids the best shot of 
having those children make better choices?
    Ms. McKenzie. Well, I think adults can start acting like 
adults, take responsibility for their kids. It does not matter 
what kind of background. Kids are like sponges, and they pick 
up the messages. And if you tell them on the one hand do not do 
drugs, but they see you on the other hand drinking a lot, using 
a lot of marijuana, they are not going to believe you. And it 
does not matter whether they are the most at-risk kid or a 
secure kid, because the path--kids that get into trouble, it is 
a really pretty similar path. They early are exposed to some 
addictive substance, seeing it in action. They try it. They go 
to a home where there is no adult in attendance, and they try 
it. Some are going to be okay. Others are not going to be okay. 
And those that are not going to be okay go up the chain of 
addiction. And you see it over and over and over.
    And so I think that as adults, if we accept our 
responsibility for the health, safety, and well-being of our 
children, then we all need to walk the walk.
    Representative Welch. Okay. Thank you.
    Colonel L'Esperance, I was with Senator Leahy this morning, 
and he reminded me, in response to a question, about our 
highway fund, that we spent 42 trillion in Iraq, and he was 
wondering, you know, that money might have been spent in other 
places.
    Chairman Leahy. Like the U.S.
    Representative Welch. Well, the point here is that it is a 
tough time in Congress right now on budget and fiscal issues. 
But, on the other hand, it is a tough time in communities 
facing real challenges that need a partnership, and the partner 
should be federal tax dollars, which are your tax dollars, 
being wisely used to help communities that are willing to help 
themselves. And you mentioned that the Drug Task Force 
approach, which you have a lot of experience with, in your 
view--and, of course, Chief Baker, you too--has really been 
effective. So, you know, this is the person both on 
Appropriations and Judiciary that probably has as much 
influence as anybody, short of the President. What is your 
message to us to bring back to our colleagues about the value 
of funding these drug task forces, the COPS grant, and the 
Byrne grants?
    Colonel L'Esperance. I think if you speak to the chiefs and 
sheriffs behind me, they could tell you themselves. The funding 
at the local level, State level, when that gets diminished, we 
depend so heavily on--on Senator Leahy in particular--federal 
funding. I was the envy of my colleagues across the country for 
a number of years when we had a way of getting money to 
Vermont, so we were very fortunate. The Drug Task Force was 
built, the foundation of the task force was built on federal 
funding. But it became a house of cards after a period of time. 
But there is State legislation that Senator Sears in particular 
has supported and directed to the task force, and the chiefs 
and sheriffs behind me that buy into this, they send officers 
into the task force now with no funding backup. They understand 
the significance. It goes beyond the boundaries of their 
community.
    Representative Welch. Okay. Thank you.
    Colonel L'Esperance. Thank you.
    Representative Welch. Thank you very much.
    Chairman Leahy. I want you to know that there is now an 
effort to go back to doing things in Appropriations where we 
actually care about some of the needs here in this country. I 
think you are going to be happy that is going to happen. I am 
also going to try to reauthorize very soon the Leahy 
bulletproof vests bill.
    [Applause.]
    Chairman Leahy. As we close, one thing. The mayor has been 
here through the whole hearing--and, Mr. Mayor, thank you very 
much because you have been very, very good at working with us 
on this, and I thank you for that. We have here the Attorney 
General, our Attorney General, our U.S. Marshal, and so many 
others in law enforcement.
    And, last, this is the card.
    [Laughter.]
    Chairman Leahy. So that I do not have to have one of my 
grandkids tell you how to do it, take that card. If you have 
some testimony you want to give, please limit it to 10 pages 
and get it to us by March 21st.
    And I mention this, think about it, if you have something 
you want to say, whether you agree or disagree--agree or 
disagree--feel free to do it. You know, we put testimony in the 
record, like Sheriff Marcoux's and others, but this is going to 
be a part of the permanent record in the U.S. Senate. Both 
Republicans and Democrats will be influenced on this, on the 
question. And I will make sure the Appropriations Committee 
will see it, too. We do go by seniority in both Committees, and 
as some have heard me say, as I said earlier this morning, when 
I came to the Senate I had no seniority, and I hated the 
system; but now that I understand it----
    [Laughter.]
    Chairman Leahy [continuing]. Having studied it for a few 
decades, I love the system. And they will hear about it.
    And I want to thank Peter Welch. He has got 40 different 
places he is supposed to be today, and he has been so concerned 
about this issue. He has been a great partner over in the 
House. The two of us have tried to approach this as a non-
partisan issue. I have joined with some of the most 
conservative Republicans in the Senate as well as some of the 
most liberal Democrats, and we have been effectively able to 
get legislation through.
    This is not a political issue. This is our children. These 
are our family members. These are our brothers and sisters. In 
some instances, this is our parents. Let us work together. I 
think you know that we will be there for you because you have 
always been there for us.
    We stand in recess.
    [Applause.]

        [Whereupon, at 2:58 p.m., the Committee was adjourned.]

                            A P P E N D I X

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

              Prepared Statement of Chairman Patrick Leahy

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                Prepared Statement of Tristram J. Coffin

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                  Prepared Statement of James W. Baker

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                  Prepared Statement of Harry Chen, MD

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


               Prepared Statement of Mary Alice McKenzie

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


             Prepared Statement of Col. Thomas L'Esperance


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



       Questions submitted by Senator Grassley for James W. Baker

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

       Questions submitted by Senator Grassley for Dr. Harry Chen

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Questions submitted by Senator Grassley for Mary Alice McKenzie

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
   Questions submitted by Senator Grassley for Col Thomas L'Esperance

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 Responses of James W. Baker to questions submitted by Senator Grassley

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 Responses of Dr. Harry Chen to questions submitted by Senator Grassley

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  Responses of Mary Alice McKenzie to questions submitted by Senator 
                                Grassley

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Responses of Col. Thomas L'Esperance to questions submitted by Senator 
                                Grassley

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                Miscellaneous Submissions for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                  
                                  
                                  [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
